TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Fiscal Year 2008 Review of Compliance With
                Legal Guidelines When Conducting Seizures
                           of Taxpayers’ Property



                                           June 6, 2008

                              Reference Number: 2008-30-126




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 6, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2008 Review of Compliance With
                               Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                               (Audit # 200830002)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with legal guidelines when conducting seizures. The overall objective of this review was to
 determine whether seizures1 conducted by the IRS complied with legal provisions set forth in
 Internal Revenue Code (I.R.C.) Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998) and
 with the IRS’ own internal procedures. This audit was not intended to determine whether the
 decision to seize was appropriate or to identify the cause of any violation.

 Impact on the Taxpayer
 To ensure that taxpayers’ rights are protected, the IRS Restructuring and Reform Act of 19982
 amended the seizure provisions in I.R.C. §§ 6330 through 6344. The IRS did not always comply
 with these statutory requirements. Although we did not identify any instances in which
 taxpayers were adversely affected, noncompliance with I.R.C. requirements could result in
 abuses of taxpayers’ rights.




 1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
 2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                     Fiscal Year 2008 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property




Recommendation
We recommended that the Director, Collection Policy, Small Business/Self-Employed Division,
require use of the Seized Property Sale Report (Form 2436) for all seizure expenses and proceeds
accounting including sales, releases, and redemptions.1

Response
IRS management agreed with our recommendation. A new form will be created for posting
seizure expenses for releases and redemptions. In the interim, the Director, Collection Policy,
Small Business/Self-Employed Division, will ensure compliance with accounting guidelines for
seizure expenses and proceeds through field program reviews. Management’s complete response
to the draft report is included as Appendix VII.
Copies of this report are also being sent to IRS managers affected by the report recommendation.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




1
  Seized property can be released to the taxpayer under a number of circumstances, including 1) the Federal
Government receives its interest in the property, 2) future collection potential is enhanced by the release, or
3) release will facilitate the collection of the liability. Any person whose property has been seized can redeem the
property prior to a sale if the person pays the full amount of taxes, penalties, and interest due and any expenses of
the seizure and preparation for sale.
                                                                                                                        3
                       Fiscal Year 2008 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Did Not Always Comply With
          Legal Provisions and Internal Procedures When Conducting Seizures........Page 3
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures .....................................................................................Page 13
          Appendix VI – Prior Reports on Compliance With Seizure Procedures ......Page 16
          Appendix VII – Management’s Response to the Draft Report.....................Page 17
         Fiscal Year 2008 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                    Fiscal Year 2008 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as an installment agreement or an
offer in compromise.1 If these actions have been taken and the taxpayer has not fully paid the tax
due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344 (1994 & Supp. IV 1998). These provisions and the IRS’ internal procedures are very
specific regarding how a seizure should be performed. See Appendix V for a synopsis of the
applicable legal provisions.
The Treasury Inspector General for Tax Administration is required under
I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to annually evaluate the IRS’ compliance with these
legal seizure provisions. We have done this since Fiscal Year 1999. See Appendix VI for a list
of all prior audit reports issued on the IRS’ compliance with seizure procedures.
Following passage of the IRS Restructuring and Reform Act of 1998, the number of seizures by
the IRS decreased from 10,090 in Fiscal Year 1997 to 74 in Fiscal Year 2000. Although the
number of seizures has steadily increased since Fiscal Year 2000, the number in Fiscal
Year 2007 was still less than 7 percent of the number reported in Fiscal Year 1997. It is unlikely
that the use of seizures will ever return to the pre-1998 levels. Figure 1 illustrates the number of
seizures made over the past 11 fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 1
                       Fiscal Year 2008 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                  Figure 1: IRS Seizures by Fiscal Year

               12,000
                         10,090
               10,000


                 8,000

                 6,000

                 4,000
                                  2,259
                 2,000
                                                                        399    440     512    590     676
                                          161     74     234     296
                   -
                           1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007

            Source: IRS Data Books.3

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period August 2007 through February 2008. The audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. It was not intended to determine whether the decision to seize was
appropriate or to identify the cause of any violation. We did not assess internal controls because
doing so was not applicable within the context of our audit objective. Otherwise, we conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                            Page 2
                     Fiscal Year 2008 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



Taxpayers were not always provided notices of seizure with accurate liability
balances
I.R.C. § 6335(a) requires the IRS, as soon as practicable after the seizure of property, to provide
the owner of the property with a notice in writing that specifies the liability for which the seizure
was made and an accounting of the property seized.
The Internal Revenue Manual provides guidance on completing the Notice of Seizure
(Form 2433). While it does address accounting for the property seized, it does not specifically
address specifying the liability for which the seizure was made. Instead, it states that the
Form 2433 should have the taxpayer’s total outstanding liability, which is not necessarily the
amount for which the seizure was made. We identified five cases in which the Forms 2433
provided to the taxpayers did not show the correct liabilities for which the seizures were made.
During the review, the IRS notified us that it is taking corrective action and making an Internal
Revenue Manual revision to the instructions for Form 2433. The revised instructions will read as
follows:
    The Form 2433 liability should equal the taxpayer’s total amount due for the tax modules8
    listed on Form 668-B, Notice of Levy. This amount should include all accruals and match
    the Total Amount Due on Form 668-B. If there is a difference in amount, it should be
    documented in the Integrated Collection System9 history.

Seizures were not always properly approved
IRS Restructuring and Reform Act of 1998 § 3421 requires that the seizure of a taxpayer’s
property, where appropriate, be reviewed and approved by a supervisor of the employee who
plans to conduct the seizure before the action is taken. This Section allows the IRS to determine
the approval process for seizures.
I.R.C. § 6334(e)(2) states that tangible personal property or real property (other than real
property that is rented) used in the trade or business of an individual taxpayer is exempt from
levy unless the district director or assistant district director personally approves (in writing) the
levy of such property, or the Secretary of the Treasury finds that the collection of tax is in
jeopardy.




8
  Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a calendar
year for each type of tax.
9
  The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
                                                                                                               Page 6
                 Fiscal Year 2008 Review of Compliance With Legal Guidelines
                       When Conducting Seizures of Taxpayers’ Property



Recommendation
Recommendation 1: The Director, Collection Policy, Small Business/Self-Employed
Division, should require use of Form 2436 for all seizure expenses and proceeds accounting
including sales, releases, and redemptions. The Form contains the required entries for expenses
and proceeds and a summary section for expenses incurred.
       Management’s Response: IRS management agreed with the recommendation and
       advised a new form will be created for posting seizure expenses for releases and
       redemptions. In the interim, the Director, Collection Policy, Small Business/
       Self-Employed Division, will ensure compliance with accounting guidelines for seizure
       expenses and proceeds through field program reviews.




                                                                                         Page 8
                    Fiscal Year 2008 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures1 conducted by the
IRS complied with legal provisions set forth in I.R.C. §§ 6330 through 6344 (1994 & Supp. IV
1998) and with the IRS’ own internal procedures.2 We did not assess internal controls because
doing so was not applicable within the context of our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.
To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 683 seizures conducted by the IRS
         from July 1, 2006, through June 30, 2007. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures and
         whether the proceeds and applicable expenses of the seizures and sales were properly
         recorded to the taxpayers’ accounts on the IRS’ main computer system. We used a
         random sample to ensure that each of the 683 seizures had an equal chance of being
         selected.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violation.
                                                                                                             Page 9
                Fiscal Year 2008 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl Aley, Director
Amy L. Coleman, Audit Manager
Janis Zuika, Lead Auditor
Cristina Johnson, Senior Auditor




                                                                                      Page 10
                Fiscal Year 2008 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 11
                       Fiscal Year 2008 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                                                                        Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Potential; 19 taxpayers for whom the IRS did not
       comply with legal provisions and internal procedures when conducting seizures1 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 683 seizures conducted from
July 1, 2006, through June 30, 2007. While we did not identify any instances in which the
taxpayers were adversely affected, failure to adhere to legal and internal guidelines could result
in abuses of taxpayers’ rights.




1
    Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                             Page 12
                     Fiscal Year 2008 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

Synopsis of Selected Legal Provisions for Conducting
                      Seizures

I.R.C. § 6330 (Supp. IV 1998) requires that the IRS issue the taxpayer a notice of his or her
right to a hearing prior to seizure1 action. The notice must be 1) given in person, 2) left at the
taxpayer’s home or business, or 3) mailed as certified-return receipt requested no fewer than
30 calendar days before the day of the seizure. The notice must explain in simple terms 1) the
amount owed, 2) the right to request a hearing during the 30-day period, and 3) the proposed
action by the IRS and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 (1994 & Supp. IV 1998) authorizes the IRS to seize a taxpayer’s property for
unpaid tax after sending the taxpayer a 30-calendar-day notice of intent to levy.2 This Section
also prohibits seizure 1) during a pending suit for the refund of any payment of a divisible tax,
2) before a thorough investigation of the status of any property subject to seizure, or 3) while
either an offer in compromise3 or an installment agreement is being evaluated and, if necessary,
for 30 additional calendar days during which the taxpayer may appeal the rejection of the offer in
compromise or installment agreement.
I.R.C. § 6332 (1994 & Supp. IV 1998) requires that a third party in possession of property
subject to seizure surrender such property when a levy notice is received. It contains sanctions
against third parties that do not surrender such property when a levy notice is received.
I.R.C. § 6333 (1994 & Supp. IV 1998) requires a third party with control of books or records
containing evidence or statements relating to property subject to seizure to exhibit such books or
records to the IRS when a levy notice is received.




1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 13
                    Fiscal Year 2008 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6334 (1994 & Supp. IV 1998) enumerates property exempt from seizure. The
exemption amounts are adjusted each year and included $7,040 for the period July 1 through
December 31, 2004, and $7,200 for the period January 1 through June 30, 2005, for fuel,
provisions, furniture, and personal effects; and $3,520 for the period July 1 through
December 31, 2004, and $3,600 for the period January 1 through June 30, 2005, for books and
tools necessary for business purposes. Also, any primary residence--not just the taxpayer’s--
is exempt from seizure when the amount owed is $5,000 or less. Seizure of the taxpayer’s
principal residence is allowed only with the approval of a United States District Court judge or
magistrate. Property used in an individual taxpayer’s business is exempt except with written
approval of the Area Office4 Director, and the seizure may be approved only if other assets are
not sufficient to pay the liability.
I.R.C. § 6335 (1994 & Supp. IV 1998) contains procedures for the sale of seized property.
Notice must be given to the taxpayer; the property must be advertised in the county newspaper or
posted at the nearest United States Postal Service office; and such notices shall specify the time,
place, manner, and conditions of sale. This Section requires that the property be sold no fewer
than 10 calendar days or more than 40 calendar days from the time of giving public notice.
Finally, this Section expressly prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 (Supp. IV 1998) contains procedures for the accelerated disposition of perishable
property. This is property such as fresh food products or any property that requires prohibitive
expenses to maintain during the normal sale time period. The property may either be sold
quickly or returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 (1994 & Supp. IV 1998) allows the taxpayer to redeem seized property prior to
sale by paying the amount due plus the expenses of the seizure. It also allows a taxpayer to
redeem real property within 180 calendar days of the sale by paying the successful bidder the
purchase price plus 20 percent per annum interest.
I.R.C. § 6338 (1994 & Supp. IV 1998) requires the IRS to give purchasers of seized property a
certificate of sale upon full payment of the purchase price. This includes issuing a deed to real
property after expiration of the 180-calendar-day period required by I.R.C. § 6337. The deed is
exchanged for the certificate of sale issued at the time of the sale.
I.R.C. § 6339 (1994 & Supp. IV 1998) provides the legal effect of the certificate of sale for
personal property and the transfer deed for real property.
I.R.C. § 6340 (1994 & Supp. IV 1998) requires each Area Office to keep a record of all sales of
seized property. This record must include the tax for which such sale was made, the dates of
seizure and sale, the name of the party assessed, all proceedings in making such sale, the amount
of expenses, the names of the purchasers, and the date of the deed or certificate of sale of

4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 14
                    Fiscal Year 2008 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



personal property. The taxpayer will be furnished 1) the information above except the
purchasers’ names, 2) the amount of such sale applied to the taxpayer’s liability, and
3) the remaining balance of such liability.
I.R.C. § 6341 (1994 & Supp. IV 1998) allows expenses for all seizure and sale cases.
I.R.C. § 6342 (1994 & Supp. IV 1998) enumerates how the proceeds of a seizure and sale are to
be applied to a taxpayer’s account. Proceeds are applied first to the expenses of the seizure and
sale proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 (1994 & Supp. IV 1998) outlines various conditions under which a seizure may
be released and property returned to the taxpayer. These conditions include full payment of the
liability, determination of a wrongful seizure, financial hardship, etc. This Section allows a
consent agreement between the United States and either the taxpayer or the National Taxpayer
Advocate5 when the return of seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 (1994 & Supp. IV 1998) contains cross-references for I.R.C. §§ 6330 through
6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)6 § 3443 required
that the IRS implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers7 from
participating in the sales of seized assets.




5
  The Taxpayer Advocate Service is an independent organization within the IRS whose employees assist taxpayers
seeking help in resolving tax problems that have not been resolved through normal channels or who are experiencing
significant hardships.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers are referred to as revenue officers.
                                                                                                        Page 15
                Fiscal Year 2008 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix VI

          Prior Reports on Compliance With Seizure
                         Procedures

The Internal Revenue Service Needs to Improve Compliance with Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated
August 2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated May 2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 2003).
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
Taxpayers’ Property (Reference Number 2004-30-149, dated August 2004).
Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2005-30-091, dated June 2005).
Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2006-30-113, dated August 9, 2006).
Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2007-30-109, dated July 3, 2007).




                                                                                      Page 16
    Fiscal Year 2008 Review of Compliance With Legal Guidelines
          When Conducting Seizures of Taxpayers’ Property



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 17
Fiscal Year 2008 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 18
